NO. _________
IN THE

Supreme Court of the United States
COVERALL NORTH AMERICA, INC.,
Petitioner,
v.
CARLOS RIVAS, IN HIS CAPACITY AS
PRIVATE ATTORNEY GENERAL REPRESENTATIVE,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
APPENDIX IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

NORMAN M. LEON
Counsel of Record
DLA PIPER LLP (US)
444 West Lake Street, Suite 900
Chicago, Illinois 60606-0089
(312) 368-4000
NANCY NGUYEN SIMS
DLA PIPER LLP (US)
2000 Avenue of the Stars, Suite 400 North Tower
Los Angeles, California 90067-4704
(310) 595-3008
Counsel for Petitioner

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals for the Ninth Circuit, Rivas
v. Coverall North America, Inc., No. 20-55140 (Jan. 7, 2021)....... App. 1
Appendix B
Order, United States District Court for the Central District of
California, Rivas v. Coverall North America, Inc., No. SACV 18-1007
JGB (KKx) (Jan. 21, 2020) ........................................................... App. 11
Appendix C
Order, United States Court of Appeals for the Ninth Circuit, Rivas v.
Coverall North America, Inc., No. 20-55140, (April 6, 2021) ...... App. 19

(I)

App-1
Appendix A
Case: 20-55140, 01/07/2021, ID: 11955291, DktEntry: 38-1, Page 1 of 10

NOT FOR PUBLICATION

FILED
JAN 7 2021

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
CARLOS RIVAS, in his capacity as Private
Attorney General Representative,
Plaintiff-counterdefendant-Appellee,

No.

U.S. COURT OF APPEALS

20-55140

D.C. No.
8:18-cv-01007-JGB-KK
MEMORANDUM*

v.
COVERALL NORTH AMERICA, INC.,
Defendant-counter-claimantAppellant.

Appeal from the United States District Court
for the Central District of California
Jesus G. Bernal, District Judge, Presiding
Argued and Submitted November 19, 2020
Pasadena, California
Before: CALLAHAN and BUMATAY, Circuit Judges, and PRESNELL,**
District Judge.
Concurrence by Judge BUMATAY
Coverall North America, Inc., appeals the denial of its motion to compel

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Gregory A. Presnell, United States District Judge for
the Middle District of Florida, sitting by designation.

App-2
Case: 20-55140, 01/07/2021, ID: 11955291, DktEntry: 38-1, Page 2 of 10

arbitration of Carlos Rivas’s Private Attorneys General Act (PAGA)1 claim on an
individual basis. We have jurisdiction under 9 U.S.C. § 16(a)(1)(B), and,
reviewing de novo, we affirm. See Knutson v. Sirius XM Radio Inc., 771 F.3d 559,
564 (9th Cir. 2014).
Coverall first argues that the district court improperly decided issues that the
parties’ arbitration agreement reserved for an arbitrator. Specifically, the company
contends that the court had no business deciding whether Rivas could arbitrate
claims on behalf of other allegedly aggrieved employees. The problem with
Coverall’s argument, however, is that the company specifically and repeatedly
urged the district court to compel arbitration on “an individual, not a
representative, basis.” It further asserted that the question was for the court, not an
arbitrator. It is hard to see how Coverall’s position before the district court is
consistent with its position on appeal.2 In the end, the court answered the questions

1

PAGA is a California law that “authorizes an employee to bring an action
for civil penalties on behalf of the state against his or her employer for Labor Code
violations committed against the employee and fellow employees, with most of the
proceeds of that litigation going to the state.” Iskanian v. CLS Transp. L.A., LLC,
327 P.3d 129, 133 (2014); see Cal. Lab. Code §§ 2698–99.6.
2

In arguing that the district court overstepped its authority, Coverall invokes a
rule developed in the context of class arbitrations. See Shivkov v. Artex Risk
Solutions, 974 F.3d 1051, 1065–66 (9th Cir. 2020) (holding that the availability of
class arbitration is a “gateway” issue for the courts absent clear and unmistakable
evidence to the contrary). Setting aside whether such a rule is appropriately
applied to provisions governing the arbitration of PAGA claims, courts addressing
whether class arbitration is available necessarily also address the enforceability of
2

App-3
Case: 20-55140, 01/07/2021, ID: 11955291, DktEntry: 38-1, Page 3 of 10

put to it by Coverall; it simply ruled on the enforceability of a provision that it was
asked to enforce. We perceive no reversible error.
Coverall next contends that the Federal Arbitration Act preempts
California’s rule against waivers of representative PAGA claims. Although
Sakkab v. Luxottica Retail North America, Inc., 803 F.3d 425 (9th Cir. 2015),
forecloses this argument, Coverall asserts that the Supreme Court effectively
overruled that decision in Epic Systems Corp. v. Lewis, 138 S. Ct. 1612 (2018), and
Lamps Plus, Inc. v. Valera, 139 S. Ct. 1407 (2019). We disagree. To the extent
tension exists between Supreme Court case law and Sakkab, it largely stems from
AT&T Mobility LLC v. Concepcion, 563 U.S. 333 (2011), a case Sakkab
considered at length. There, the Court held that the Federal Arbitration Act
preempts state laws that interfere with arbitration’s “fundamental attributes,”
including, primarily, its procedural informality. Id. at 348–49. The Supreme Court
then reiterated and reapplied that rule in Epic Systems and Lamps Plus. But neither
case expanded upon Concepcion in such a way as to abrogate Sakkab. See United
States v. Green, 722 F.3d 1146, 1150 (9th Cir. 2013) (specifying that even
“strong[] signals” from the Supreme Court that our precedent is wrong do not

class-waiver provisions, just as the district court decided the enforceability of the
purported representative PAGA waiver here. See, e.g., Reed Elsevier, Inc. ex rel.
LexisNexis Div. v. Crockett, 734 F.3d 594, 600 (6th Cir. 2013).

3

App-4
Case: 20-55140, 01/07/2021, ID: 11955291, DktEntry: 38-1, Page 4 of 10

allow a three-judge panel to overrule circuit precedent). Accordingly, insofar as
the disputed provision of the parties’ arbitration agreement bars Rivas from
arbitrating his PAGA claim in full, it remains unenforceable under California law.
Coverall’s remaining arguments are similarly unavailing. The company
likens PAGA actions to class arbitrations, which, given their procedural
complexity, can frustrate the aims of the Federal Arbitration Act. See, e.g.,
Concepcion, 563 U.S. at 348–50. Yet in Sakkab we explained that the two
proceedings markedly differ.3 Namely, PAGA arbitrations “do not require the
formal procedures of class arbitration.” Sakkab, 803 F.3d at 436. Coverall lastly
urges that California’s rule fails to qualify as a generally applicable contract
defense under the Federal Arbitration Act’s savings clause. But because we also
rejected this argument in Sakkab, 803 F.3d at 432–33, the district court properly
applied California law and denied Coverall’s motion to compel arbitration on an
individual basis.
AFFIRMED.

3

This Court and the California Supreme Court have recently reiterated the
fundamental differences between the two types of proceedings. See Canela v.
Costco Wholesale Corp., 971 F.3d 845, 851–53 (9th Cir. 2020); Kim v. Reins Int’l
Cal., Inc., 459 P.3d 1123, 1130–31 (Cal. 2020).
4

App-5
Case: 20-55140, 01/07/2021, ID: 11955291, DktEntry: 38-1, Page 5 of 10

FILED

Rivas v. Coverall North America, No. 20-55140

JAN 7 2021
MOLLY C. DWYER, CLERK

BUMATAY, Circuit Judge, concurring:

U.S. COURT OF APPEALS

Our precedent puts us in the middle of the jurisprudential equivalent of a rock
and a hard place. By affirming the denial of the motion to compel here, we have
faithfully applied our precedent as well as any three-judge panel of this court could.
I therefore join the majority decision.
But I write separately to explain how that precedent has been seriously
undermined and should be revisited by our court en banc.
I.
Rivas’s PAGA claim is plainly within the scope of the arbitration agreement,
which requires that “all controversies, disputes or claims” between Coverall and
Rivas “be submitted promptly for arbitration.”

The agreement also requires

arbitration be conducted on an “individual, not class wide basis.” Without our
precedent, this would have been a simple case. To enforce the parties’ agreement,
we should have just compelled arbitration of Rivas’s PAGA claim on an individual
basis. That is the only solution that gives proper effect to the parties’ expressed
intent.
But this isn’t a simple case.

The problem is that P AGA claims are

“representative” by their very nature. Iskanian v. CLS Transportation Los Angeles,
LLC, 59 Cal. 4th 348, 381 (2014); see Cal. Lab. Code § 2699(a) (2016). And forcing

1

App-6
Case: 20-55140, 01/07/2021, ID: 11955291, DktEntry: 38-1, Page 6 of 10

Rivas to arbitrate the PAGA claim on an “individual” basis would run headlong into
California law. As the majority decision summarizes, the so-called Iskanian rule
makes any waiver of representative PAGA claims in an employment agreement
unenforceable. See Iskanian, 59 Cal. 4th at 383. This wouldn’t have posed an
obstacle if, like most state laws that frustrate and interfere with arbitration
agreements, the Iskanian rule was preempted by the Federal Arbitration Act
(“FAA”). 9 U.S.C. § 2. But, here’s the rub: In Sakkab v. Luxottica Retail N. Am.,
Inc., 803 F.3d 425, 427 (9th Cir. 2015), we held the Iskanian rule was not preempted
by the FAA.
This leaves us with several bad options. We could, like the district court
suggested, hold that the P AGA claim falls outside the scope of the arbitration
agreement. But doing so would have us ignore the plain text of the parties’
agreement, which is not something we can do. See American Express Co. v. Italian
Colors Restaurant, 570 U.S. 228, 233 (2013) (The FAA requires courts to rigorously
“enforce arbitration agreements according to their terms[.]”) (simplified).
We could also compel arbitration of the P AGA claim, but on a
“representative” basis. Of course, that would require transforming the arbitration
agreement, which only permits arbitration on an individual basis, into one that allows
representative arbitration as well. Yet, we can’t just compel parties into any type of
arbitration without their consent. See Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp.,

2

App-7
Case: 20-55140, 01/07/2021, ID: 11955291, DktEntry: 38-1, Page 7 of 10

559 U.S. 662, 685 (2010) (holding that class arbitration cannot be imposed on parties
based on silence in the arbitration agreement).
Instead, we affirm the district court, which held the arbitration agreement
unenforceable because, under Iskanian and Sakkab, it works as an implied waiver of
PAGA claims. This solution, while compelled by our precedent, undermines the
parties’ promises to each other and potentially upends all arbitration agreements.
We now creep closer to the day that a party may always sidestep an arbitration
agreement simply by filing a PAGA claim.1
II.
Recent Supreme Court decisions in Epic Systems Corp. v. Lewis, 138 S. Ct.
1612 (2018), and Lamps Plus, Inc. v. Varela, 139 S. Ct. 1407 (2019), make clear that
our precedent is in serious need of a course correction. While I agree that Sakkab is
not clearly irreconcilable with Epic Systems and Lamps Plus and that we are required
to continue to apply Sakkab, the writing is on the wall that the Court disfavors our
approach. We should correct our law before being countermanded by the Court yet
again.

When we arrive there formally, we’ll be late to the party: California courts
have already said as much. Collie v. Icee Co., 52 Cal. App. 5th 477, 481 (2020)
(suggesting that an otherwise valid arbitration agreement does not provide a basis to
compel arbitration of a PAGA claim) (collecting cases).
1

3

App-8
Case: 20-55140, 01/07/2021, ID: 11955291, DktEntry: 38-1, Page 8 of 10

In Epic Systems, the Court overturned our view of the FAA’s saving clause.
138 S. Ct. at 1622–23, 1632. That provision states that an arbitration agreement
“shall be valid, irrevocable, and enforceable, save upon such grounds as exist at law
or in equity for the revocation of any contract.” 9 U.S.C. § 2. We held that this
provision preserves the unenforceability of an agreement requiring individualized
arbitration proceedings based on federal law deeming such contracts illegal. See
Morris v. Ernst & Young, LLP, 834 F.3d 975, 985 (9th Cir. 2016). But the clause,
the Court instructed, “offers no refuge for defenses that apply only to arbitration or
that derive their meaning from the fact that an agreement to arbitrate is at issue.”
Epic Sys. Corp., 138 S. Ct. at 1622 (simplified). That means § 2 does not protect
“defenses that target arbitration either by name or by more subtle methods.” Id. In
other words, the saving clause doesn’t preserve defenses that interfere with the
“fundamental attributes of arbitration.” Id. (simplified).
Most importantly here, Epic Systems specifically denoted that defenses that
“attack[] . . . the individualized nature of arbitration proceedings,” instead of “class
or collective ones,” fall into the category of law that interferes with arbitration’s
fundamental attributes. Id. (emphasis added). So the Court held preempted the
defense that allowed a party to demand a classwide arbitration since it alters “the
traditionally individualized and informal nature of arbitration.” Id. at 1623. The
lesson from Epic Systems is thus: defenses that render “a contract . . . unenforceable

4

App-9
Case: 20-55140, 01/07/2021, ID: 11955291, DktEntry: 38-1, Page 9 of 10

just because it requires bilateral arbitration” are not within the saving clause’s
aegis. Id.
Only a year later, the Court again reviewed our arbitration jurisprudence in
Lamps Plus. There, we applied a California common-law contract principle to
construe an ambiguous arbitration agreement as requiring class arbitration. 139 S.
Ct. at 1417. Even though the contract-law canon was “nondiscriminatory” and
“neutral,” and gave “equal treatment” to all contracts, the Supreme Court still found
it not protected by the FAA’s saving clause. Id. at 1418. The Court reiterated that
“courts may not rely on state contract principles to reshape traditional individualized
arbitration by mandating classwide arbitration procedures without the parties’
consent.” Id. (simplified).
The tensions between Epic Systems/Lamps Plus and Sakkab are obvious. By
holding that the Iskanian rule is not preempted by the FAA, we interfere with
“arbitration’s fundamental attributes.” Epic Sys. Corp., 138 S. Ct. at 1622. Indeed,
its application in this case requires that the parties not arbitrate a claim at all.
Otherwise, in other cases, Sakkab would mandate “representative,” rather than
individual, arbitration. 803 F.3d at 438–39; see id. at 436 (PAGA claims would
require arbitration of “penalties arising out of violations against others employees”).
But, that is precisely the type of defense that targets an arbitration agreement “just
because it requires bilateral arbitration,” which the Court held doesn’t survive the

5

App-10
Case: 20-55140, 01/07/2021, ID: 11955291, DktEntry: 38-1, Page 10 of 10

FAA. Epic Sys. Corp., 138 S. Ct. at 1623. Furthermore, Sakkab held the Iskanian
rule not preempted because its purpose is to enforce California’s labor laws, a
traditional police power. 803 F.3d at 439. But like the state’s traditional interest in
contract law in Lamps Plus, state law doesn’t survive preemption if it “reshape[s]
traditional individualized arbitration.” 139 S. Ct. at 1418 (simplified). Based on
these cases, Sakkab remains good—but severely hobbled—law.2
III.
The Supreme Court has repeatedly emphasized that the FAA’s saving clause’s
offers no protection to state laws that interfere with parties’ choice to engage in
individual, bilateral arbitration. To the extent that the Iskanian rule undermines that
choice—and it clearly does—it runs afoul of the FAA and must be preempted.
Unfortunately, our saving-clause precedent is in disharmony with the
Supreme Court’s. Both Epic Systems and Lamps Plus required the Supreme Court
to step in and correct our saving-clause decisions—two times in the course of two
terms. We should listen to what the Court is telling us and revisit our precedent
before again being forced to do so.

Sakkab also held that the Iskanian rule is a “generally applicable” contract
defense under § 2. 803 F.3d at 432–33. I have serious doubts that such is the case.
See AT&T Mobility LLC v. Concepcion, 563 U.S. 333, 352–55 (2011) (Thomas, J.,
concurring) (explaining that, to come within § 2, a contract defense not only must
apply to any contract, but also that the defense must concern the revocability—not
enforceability—of the arbitration agreement).
2

6

App-11
Appendix B
Case 8:18-cv-01007-JGB-KK Document 82 Filed 01/21/20 Page 1 of 8 Page ID #:2010

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No.

SACV 18-1007 JGB (KKx)

Date J anuary 21, 2020

Title Carlos Rivas v. Coverall North America, Inc.
Present: The Honorable

JESUS G. BERNAL, UNITED STATES DISTRICT JUDGE

MAYNOR GALVEZ

Not Reported

Deputy Clerk

Court Reporter

Attorney(s) Present for Plaintiff(s):

Attorney(s) Present for Defendant(s):

None Present

None Present

Proceedings:

Order (1) DENYING Defendant’s Motion to Compel Arbitration (Dkt.
No. 65); and (2) SETTING the Hearing on the Motion for Summary
Judgment (Dkt. No. 59) for January 27, 2020 at 9 a.m. (IN CHAMBERS)

Before the Court is Coverall North America’s (“Defendant”) motion to compel
arbitration (“Motion,” Dkt. No. 65) and Carlos Rivas’s (“Plaintiff”) motion for summary
judgment (“MSJ,” Dkt. No. 59). The Court determines the Motion is appropriate for resolution
without a hearing. See Fed. R. Civ. P. 78; L.R. 7-15. After considering the papers filed in
support of and in opposition to the Motion, the Court DENIES the Motion. The Court SETS
the hearing on the MSJ for January 27, 2020 at 9 a.m.
I. BACKGROUND
On June 7, 2018, Plaintiff filed a complaint on behalf of himself and other similarly
situated cleaning workers, alleging various labor violations stemming from Defendant’s alleged
misclassification of those cleaning workers as independent contractors. (“Complaint,” Dkt. No.
1 ¶ 1.) Defendant moved to dismiss the complaint on January 18, 2019. (“MTD,” Dkt No. 22.)
On February 28, 2019, the Court granted the MTD in part and granted Plaintiff leave to amend.
(Dkt. No. 32.) Plaintiff filed a first amended complaint on March 29, 2019. (“FAC,” Dkt. No.
39.) Like the initial complaint, the FAC alleges labor violations arising from Defendant’s
conduct, and seeks civil penalties under section 2699 of the Private Attorney General Act
(“PAGA”) of 2004. (Id. ¶ 27.)

Page 1 of 8

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

App-12
Case 8:18-cv-01007-JGB-KK Document 82 Filed 01/21/20 Page 2 of 8 Page ID #:2011

On April 12, 2019, Defendant filed an answer to the FAC, which contained a
counterclaim seeking a declaratory judgment that, “[i]f Plaintiff is deemed an employee rather
than an independent contractor, . . . the Franchise Agreement between Plaintiff and Coverall is
void under the doctrines of impracticability of performance, frustration of purpose, and/or
mutual mistake.” (“Answer,” Dkt. No. 41 ¶ 52.) On May 17, 2019, Plaintiff filed a motion to
dismiss the counterclaim, arguing that the counterclaim is not ripe for review and should be
dismissed as retaliatory. (Dkt. No. 51.) On July 12, 2019, the Court denied Plaintiff’s motion to
dismiss. (Dkt. No. 58.)
On November 18, 2019, Defendant filed the Motion. (See Motion.) In support of the
Motion, Defendant filed three declarations (Dkt. Nos. 65-2–4), including a declaration attaching
a contractual agreement between the parties (“Franchise Agreement,” Dkt. No. 65-3). On
November 25, 2019, Plaintiff opposed the Motion. (“Opposition,” Dkt. No. 68.) On December
30, 2019 Defendant replied. (“Reply,” Dkt. No. 75.)
II.

LEGAL STANDARD

The Federal Arbitration Act (the “FAA”) provides that contractual arbitration
agreements “shall be valid, irrevocable, and enforceable, save upon such grounds as exist at law
or in equity for the revocation of any contract.” 9 U.S.C. § 2. The FAA establishes a general
policy favoring arbitration agreements. AT&T Mobility LLC v. Concepcion, 563 U.S. 333, 339
(2011); Cox v. Ocean View Hotel Corp., 533 F.3d 1114, 1119 (9th Cir. 2008) (“Section 2 of the
FAA creates a policy favoring enforcement of agreements to arbitrate.”). Its principal purpose is
to “ensure that private arbitration agreements are enforced according to their terms.”
Concepcion, 563 U.S. at 334 (citing Volt Info. Sciences, Inc. v. Bd. of Tr. of Leland Stanford Jr.
Univ., 489 U.S. 468 (1989) (internal quotation marks omitted)). “Arbitration is a matter of
contract, and the [FAA] requires courts to honor parties’ expectations.” Id. at 351.
Under the FAA, “[a] party aggrieved by the alleged failure, neglect, or refusal of another
to arbitrate under a written agreement for arbitration may petition any United States district
court . . . for an order directing that such an arbitration proceed in the manner provided for in
[the arbitration] agreement.” 9 U.S.C. § 4. Upon a showing that a party has failed to comply
with a valid arbitration agreement, the district court must issue an order compelling arbitration.
Id. If such a showing is made, the district court shall also stay the proceedings pending resolution
of the arbitration at the request of one of the parties bound to arbitrate. Id. § 3. To determine
whether to compel arbitration, a district court’s involvement is limited to “determining (1)
whether a valid agreement to arbitrate exists and, if it does, (2) whether the agreement
encompasses the dispute at issue.” Cox, 533 F.3d at 1119 (quoting Chiron Corp. v. Ortho
Diagnostic Sys., Inc., 207 F.3d 1126, 1130 (9th Cir. 2000)). A party seeking to compel arbitration
under the FAA bears the burden of making this showing. Id.

Page 2 of 8

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

App-13
Case 8:18-cv-01007-JGB-KK Document 82 Filed 01/21/20 Page 3 of 8 Page ID #:2012

III. DISCUSSION
Defendant’s Motion seeks to compel Plaintiff to arbitration on an individual basis. (See
Motion.) Plaintiff argues that Defendant cannot compel individual arbitration because Plaintiff’s
only claim is a PAGA claim under section 2699, which he argues is inherently representative in
nature. (Opposition at 4–6.) Plaintiff further argues that his PAGA claim cannot be waived
under California public policy. (Id. at 8–14.) Defendant counters that the California public
policy Plaintiff relies on has been overruled by recent Supreme Court precedent. (Motion at 8–
14.) For reasons discussed fully below, the Court agrees with Plaintiff that Defendant may not
compel individual arbitration of his representative PAGA claim.
A. Clear Agreement to Arbitrate
The threshold question in a motion to compel arbitration is whether a valid contract to
arbitrate exists. Clark v. Beauty Sys. Grp., LLC, 2019 WL 4148180, at *2 (C.D. Cal. Apr. 25,
2019). “In determining whether a valid contract to arbitrate exists, a court applies state law
principles of contract formation.” Id. Under California law, “[a] contract to arbitrate will not be
inferred absent a ‘clear agreement.’” Davis v. Nordstrom, Inc., 755 F.3d 1089, 1092 (9th Cir.
2014). Here, the parties each signed the Franchise Agreement which expressly states that “all
controversies, disputes or claims between Coverall… and [Plaintiff]… shall be submitted
promptly for arbitration.” (Franchise Agreement at 24.) Plaintiff does not dispute that the
Franchise Agreement constitutes a clear agreement to arbitrate. Accordingly, the Court finds
that there is a valid contract to arbitrate between the parties.
B. Scope of the Agreement
In addition to establishing a valid arbitration agreement, Defendant “must also
demonstrate that the Agreement encompasses the dispute at issue.” Campos v. DXP
Enterprises, Inc., 2018 WL 3617885, at *5 (C.D. Cal. Mar. 14, 2018) (citing Chiron Corp. v.
Ortho Diagnostic Sys., Inc., 207 F.3d 1126, 1130 (9th Cir. 2000)). Section 21.A of the Franchise
Agreement reads, in pertinent part:
“[A]ll controversies, disputes or claims between Coverall… and [Plaintiff]…
arising out of or related to the relationship of the parties, this Agreement or the
validity of this Agreement, any related agreement between the parties, and/or any
specification, standard or operating procedure of Coverall… shall be submitted
promptly for arbitration.”
(Franchise Agreement at 24.) The Franchise Agreement goes on to specify that:
“Franchisee and Coverall agree that arbitration shall be conducted on an individual,
not a class wide basis, which restriction shall be enforceable to the fullest extent
permitted by law. An arbitration between Coverall and Franchisee shall not be
consolidated with any other proceeding between Coverall and any other
Page 3 of 8

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

App-14
Case 8:18-cv-01007-JGB-KK Document 82 Filed 01/21/20 Page 4 of 8 Page ID #:2013

Franchisee. Only Coverall… and [Plaintiff]… may be parties to any arbitration
proceeding[.]”
(Id. at 25.)
1. The Dispute at Issue is Covered by the Franchise Agreement
The Franchise Agreement clearly encompasses the dispute at issue. The Franchise
Agreement is explicit that “all controversies, disputes or claims between Coverall… and
[Plaintiff]… arising out of or related to… this Agreement… shall be submitted promptly for
arbitration.” (Id. at 24 (emphasis added).) Plaintiff’s sole claim in the Complaint is a PAGA
claim arising out of his employment with Defendant. (See FAC.) Plaintiff’s employment was
directly pursuant to the Franchise Agreement. (Id. ¶¶ 7–8, 20.) Thus, the dispute is clearly
subject to arbitration under the Franchise Agreement.
2. The Franchise Agreement Does Not Permit Representative Arbitration
The question remains whether the Agreement’s mandate that “arbitration shall be
conducted on an individual… basis” prohibits arbitration of Plaintiff’s claim on a representative
basis.1 (Franchise Agreement at 25); see also Cal. Lab. Code § 2699(a) (requiring that claims be
brought on behalf of the “aggrieved employee… and other current or former employees”). The
Court finds that Section 21.A of the Agreement prohibits representative arbitration. The
section’s mandate that arbitration “shall be conducted on an individual, not a class wide basis”
does not precisely address the issue of representative claims, which — despite a number of
similarities — are legally and functionally distinct from class action claims. Sakkab v. Luxottica
Retail N. Am., Inc., 803 F.3d 425, 435–36 (9th Cir. 2015). However, the remainder of the section
makes clear that arbitration “shall not be consolidated with any other proceeding” between
Defendant and any other Franchisee and that “[o]nly Coverall… and [Plaintiff]… may be parties
to any arbitration proceeding[.]” (Franchise Agreement at 25.) This is inconsistent with the
inherent nature of representative actions, which permit one party to bring a claim on behalf of
other parties and the state. See Romo v. CBRE Grp., Inc., 2018 WL 4802152, at *5 (C.D. Cal.
Oct. 3, 2018) (finding that agreement that required all claims be arbitrated in plaintiff’s
“individual capacity” prohibited representative arbitration of PAGA claim). The Court thus
finds that the Franchise Agreement does not permit representative arbitration.
3. Plaintiff’s PAGA Claim is Not Individually Arbitrable and Thus Outside the Scope
of the Agreement
Next, the Court examines whether Plaintiff’s claim is arbitrable on an individual basis.
Plaintiff brings a claim for civil penalties under section 2699(f) of PAGA. (See FAC.) Section
2699(a) directs that all civil penalty claims brought under the section are alleged on behalf of “an
1

Defendant concedes that the Court, not an arbitrator, should decide whether Plaintiff’s
claim is arbitrable on an individual rather than representative basis. (Motion at 6–8.)
Page 4 of 8

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

App-15
Case 8:18-cv-01007-JGB-KK Document 82 Filed 01/21/20 Page 5 of 8 Page ID #:2014

aggrieved employee… and other current or former employees.” Cal. Lab. Code § 2699(a)
(emphasis added); see also Quevedo v. Macy's, Inc., 798 F. Supp. 2d 1122, 1141 (C.D. Cal. 2011)
(“[T]he PAGA… allows an aggrieved employee to bring a civil action ‘on behalf of himself or
herself and other current or former employees,’ not on behalf of himself or other employees.”)
(emphasis in original). Thus, section 2699 requires that PAGA claims for civil penalties must be
brought on behalf of other aggrieved employees. Id. For that reason, other district courts within
the Ninth Circuit have almost universally held that claims for civil penalties under PAGA fall
outside the scope of arbitration agreements mandating individual arbitration. See, e.g., Itkoff v.
ABC Phones of N. Carolina, Inc., 2018 WL 6242158, at *5 (C.D. Cal. Oct. 11, 2018) (“[B]ecause
the Arbitration Agreement excludes ‘representative’ or ‘private attorney general’ claims,
Plaintiff’s PAGA claim, which is categorically representative, is not subject to arbitration, and it
shall remain pending in this judicial forum.”); Romo, 2018 WL 4802152, at *5 (C.D. Cal. Oct. 3,
2018) (“Claims for ‘civil penalties’ brought under PAGA are categorically representative. Thus,
to the extent Plaintiff’s PAGA claim seeks civil penalties, it is outside the scope of the arbitration
agreement, which requires all claims to be brought ‘in the party’s individual capacity.’”)
(internal citations omitted); Campos, 2018 WL 3617885, at *5 (“However, Plaintiffs contend
that their PAGA claim is outside the scope of the Agreement because it is a representative
action… California case law is clear that PAGA actions are categorically representative, not
individual…. Therefore, Plaintiffs’ PAGA claim is outside the scope of the Arbitration
Agreement[.]”) (internal citations omitted).2 Because Plaintiff’s PAGA claim is necessarily
representative, it falls outside of the scope of the Franchise Agreement, which requires all claims
to be arbitrated “on an individual… basis[.]” (Franchise Agreement at 25.)
The parties engage in spirited debate over recent Supreme Court cases and their impact
on the holdings in Sakkab, 803 F.3d at 425 and Iskanian v. CLS Transportation Los Angeles,
LLC, 59 Cal. 4th 348, 385 (2014). Defendant maintains that both cases were overruled and no
longer apply; Plaintiff contends that both cases remain binding precedent. (Motion at 17);
(Opposition at 10.) In Iskanian, the California Supreme Court held that waivers of representative
PAGA claims were unenforceable in light of PAGA’s stated purpose of “penalizing and deterring
employers who violate California's labor laws.” Iskanian, 59 Cal. 4th at 385. In Sakkab, the
Ninth Circuit held that the Iskanian rule prohibiting representative PAGA waivers was not
preempted by the FAA because the policy did not evince hostility towards arbitration or
otherwise undermine the purpose of the FAA. Sakkab, 803 F.3d at 434.
Here, however, the Franchise Agreement does not require Plaintiff to waive or release
any of his claims. Instead, the Franchise Agreement requires Plaintiff to arbitrate his claims in a
2

Only one court appears to have deviated from the norm. See Quevedo, 798 F. Supp. 2d
at 1142. While Defendant urges the Court to follow Quevedo’s lead, the Court declines to do so.
Quevedo based its rationale on the belief that representative arbitration is functionally and legally
indistinct from class arbitration, and thus may not be forced on contracting parties without
frustrating the purpose of the FAA. Id.; see also Concepcion, 131 S. Ct. at 1753. As discussed
infra, the Ninth Circuit in Sakkab, 803 F.3d at 425 later considered and rejected identical logic.
Sakkab, 803 F.3d at 434–37. As a result, Quevedo is unpersuasive.
Page 5 of 8

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

App-16
Case 8:18-cv-01007-JGB-KK Document 82 Filed 01/21/20 Page 6 of 8 Page ID #:2015

manner inconsistent with the inherent nature of PAGA claims. (Franchise Agreement at 25.)
Additionally, the Franchise Agreement is silent as to whether claims that are not arbitrable are
waived. Thus, it is unclear if Sakkab or Iskanian are applicable at all. Sakkab, 803 F.3d at 434;
McComack v. Marriott Ownership Resorts, Inc., 2018 WL 4242098, at *4 (S.D. Cal. Sept. 5,
2018) (“Iskanian ‘expresse[d] no preference regarding whether individual PAGA claims are
litigated or arbitrated,’ and provided only that representative PAGA claims may not be waived
outright.”) (quoting Sakkab, 803 F.3d at 434). The more logical interpretation of the Franchise
Agreement is that Section 21.A does not extend to exclusively representative claims. Under this
interpretation, Plaintiff’s PAGA claim is excluded from the Agreement and Defendant cannot
compel arbitration irrespective of Sakkab or Iskanian.
On the other hand, Section 21.A might be interpreted as an implied waiver because it
requires that “all claims… shall be submitted… for arbitration.” (Arbitration Agreement at 24.)
Perhaps this implies that no claim that arises between the parties may be litigated, even if the
claim is not arbitrable. Assuming this interpretation, the Iskanian rule would render such a
waiver unenforceable. See Iskanian, 59 Cal. 4th at 383. But contrary to Defendant’s urging, the
Ninth Circuit has held that the FAA does not preempt California’s public policy prohibiting
waivers of representative PAGA claims. See Sakkab, 803 F.3d at 434. Moreover, the recent
holdings in Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612 (2018) and Lamps Plus, Inc. v. Varela, 139 S.
Ct. 1407 (2019) did not overrule Sakkab. As a general matter, stare decisis requires adherence to
binding precedent unless “the relevant court of last resort... undercut the theory or reasoning
underlying the prior circuit precedent in such a way that the cases are clearly irreconcilable.”
Miller v. Gammie, 335 F.3d 889, 900 (9th Cir. 2003) (emphasis added).
In Epic Systems, the Supreme Court held that contract defenses that “attacked (only) the
individualized nature of arbitration proceedings” are preempted by the FAA and unenforceable
— a principle established years prior to Sakkab. Epic Systems, 138 S. Ct. at 1623 (citing
Concepcion, 131 S. Ct. at 1740) (emphasis added). Indeed, the axiom that a contract may not be
rendered unenforceable “just because it requires bilateral arbitration” was well-known to the
Sakkab court. Epic Systems, 138 S. Ct. at 1623 (emphasis omitted). In fact, the Sakkab court
weighed and rejected the argument that the Iskanian rule impermissibly targeted bilateral
arbitration agreements.3 Sakkab, 803 F.3d at 434 (“The Iskanian rule does not prohibit the
3

Defendant’s contention that the Iskanian rule is not generally-applicable and actually
arbitration-specific is misplaced. (Reply at 5.) In making its argument, Defendant largely relies
on the Ninth Circuit’s opinion in Bradley v. Harris Research, 275 F.3d 884, 890 (9th Cir. 2001)
— a case that predates Sakkab by fourteen years. Putting this fact to the side, Defendant’s
argument is untenable. Bradley held only that a state contract defense that applied just to certain
types of contracts was not “generally applicable.” Bradley, 275 F.3d at 890. It said nothing about
whether a defense that applied only to certain types of claims is not “generally applicable.” The
Iskanian rule applies to all contracts that purport to waive a party’s right to bring a representative
PAGA claim — the rule does not limit itself to just contracts with forum selection clauses like the
rule in Bradley. Id.; see also Sakkab, 803 F.3d at 432 (“At minimum, then, [generally
applicability] requires that a state contract defense place arbitration agreements on equal footing
Page 6 of 8

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

App-17
Case 8:18-cv-01007-JGB-KK Document 82 Filed 01/21/20 Page 7 of 8 Page ID #:2016

arbitration of any type of claim.”). “Put simply, [Sakkab and Iskanian explained that] PAGA
waivers are invalid because they hurt California's interest in enforcing the Labor Code[,] not
because of any reason that has anything to do with arbitration.” Gonzales v. Emeritus Corp., 407
F. Supp. 3d 862, 868 (N.D. Cal. 2019). Thus, Epic Systems does not expand the preemptive
scope of the FAA in any way that undermines the rationale in Sakkab.
Likewise, Varela is not clearly irreconcilable with Sakkab. In Varela, the Supreme Court
held that the FAA preempted a California rule of contract interpretation that compelled class
arbitration in the face of an ambiguous contract. Varela, 139 S. Ct. at 1417. According to the
Court, class arbitration and individual arbitration are so “crucial[ly] differen[t],” that even
general contract principles neutral towards arbitration could be preempted by the FAA if they
compel class arbitration without the clear consent of the parties. Id. at 1416. The Court
explained that neutral state contract rules that required class arbitration without party consent
“interfere[e] with fundamental attributes of [individual] arbitration” by increasing its size,
costliness, and complexity. Id. at 1418. Thus, the Court concluded that such neutral contract
rules — even if generally applicable — were preempted by the FAA. Id. In Sakkab, however, the
Ninth Circuit contemplated and held inapplicable the precise rationale utilized in Varela. The
Sakkab court explained that distinct differences between representative PAGA actions and class
actions meant that unlike the latter, the former “d[id] not diminish parties’ freedom to select
informal arbitration procedures” and did not entail the same procedural morass or inefficiency as
class arbitration. Sakkab, 803 F.3d at 435. The Sakkab court reasoned that representative
arbitration was not necessarily as slow, costly, or procedurally complex as class arbitration. Id. at
438–39. The Sakkab court thus held that representative arbitration does not “interfere[e] with
fundamental attributes of [individual] arbitration” in the same way as class arbitration. Varela,
139 S. Ct. at 1418; Sakkab, 803 F.3d at 439. Accordingly, the Court’s disfavoring of class
arbitration in Varela did nothing to overrule Sakkab or the Iskanian rule because the Ninth
Circuit has held that representative arbitration — unlike class arbitration — is not functionally
incompatible with the aims of the FAA.
In sum, Sakkab addressed and rejected application of the principles elaborated in both
Varela and Epic Systems. Aside from reviving arguments already addressed and rejected by the
Ninth Circuit, Defendant has not shown Sakkab is clearly irreconcilable with Epic Systems or
Varela. See Gonzales, 2019 WL 6255443, at *5–6 (rejecting defendant’s argument that Epic
Systems overruled Sakkab and the Iskanian rule). Consequently, whether the Iskanian rule
applies or not, Defendant may not compel Plaintiff to individually arbitrate his representative
PAGA claim. As a result, the Court DENIES Defendant’s Motion.4

with non-arbitration agreements…. The Iskanian rule complies with this requirement. The rule
bars any waiver of PAGA claims, regardless of whether the waiver appears in an arbitration
agreement or a non-arbitration agreement.”). Thus, Bradley is inapposite.
4

Because the Court finds that Plaintiff’s PAGA claim is outside the scope of the
arbitration agreement, it need not address Plaintiff’s effective vindication or waiver arguments.
(Opposition at 14–21.)
Page 7 of 8

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

App-18
Case 8:18-cv-01007-JGB-KK Document 82 Filed 01/21/20 Page 8 of 8 Page ID #:2017

IV.

CONCLUSION

For the foregoing reasons, Defendant’s Motion is DENIED. The hearing on the MSJ is
SCHEDULED for January 27, 2020 at 9 a.m.
IT IS SO ORDERED.

Page 8 of 8

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

App-19
Appendix C
Case: 20-55140, 04/06/2021, ID: 12064779, DktEntry: 44, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 6 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

CARLOS RIVAS, in his capacity as Private
Attorney General Representative,
Plaintiff-counterdefendant-Appellee,

No.

20-55140

D.C. No.
8:18-cv-01007-JGB-KK
Central District of California,
Santa Ana

v.
ORDER
COVERALL NORTH AMERICA, INC.,
Defendant-counter-claimantAppellant.
Before: CALLAHAN and BUMATAY, Circuit Judges, and PRESNELL,* District
Judge.
The full court has been advised of the petition for rehearing en banc, and no
judge has requested a vote on whether to rehear the matter. Fed. R. App. P. 35.
The petition is therefore DENIED.

*

The Honorable Gregory A. Presnell, United States District Judge for
the Middle District of Florida, sitting by designation.

